Case No.
IN THE
SUPREME COURT OF THE UNITED STATES
Tom Jensen,
Plaintiff-Petitioner
vs.
Judge Hannah Lee Blumenstiel, U.S. Bankruptcy Court, et al.
Defendants-Respondents
On petition for Writ of Certiorari to the
Court of Appeals of the Ninth Circuit, Case No.18-17049
CERTIFICATE OF COMPLIANCE
Pursuant to S.C. Rule 33.1(h) I, Tom Jensen, the undersigned, personally
checked the word count of the text of the Petition for Writ of Certiorari of this case
submitted for filing on the word processing system used to prepare the document. I
certify that the word count of the text, pages 1-20, is 5,098 words including footnotes.
This count excludes the parts of the Petition that are exempted by S.C. Rule 33.1(d).
On the bases of these facts, I, hereby, certify that the Petition complies with the word
limitations of S.C. Rule 33.1(g)(i).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on Jan. i

, 2020 ,
By

I(31AA,

s

Tom Jensen
P.O. Box 614
Oakland, CA 94604
(510) 325-3142
jenstomj@gmail.com
Petitioner in pro per.

